             January 29, 2003

             MEMORANDUM
             TO:            M/OP, Timothy T. Beans

             FROM:          IG/A/ITSA, Melinda G. Dempsey

             SUBJECT:       Follow-up of Recommendation No. 2 of Audit Report No.
                            A-000-00-001-P, “Audit of the Effectiveness of USAID’s
                            Contractor Performance Evaluation Program,” Issued on
                            December 14, 1999
                            (Report No. A-000-03-001-S)

             This memorandum is our interim report on a follow-up of the December 1999
             report recommendation. Although this is not an audit report, this report contains
             suggestions for your consideration. I appreciate the cooperation and courtesy
             extended to my staff during the recommendation follow-up.


Background   Our December 1999 audit report of the contractor performance evaluation program
             determined that USAID’s program for evaluating contractor performance was not
             effective and required significant improvements in order to ensure compliance with
             federal law and guidance. In addition, USAID had no assurance that superior
             contractors were selected or that poor contractors were avoided. USAID lacked an
             effective contractor performance evaluation program because:

             •   Few evaluation reports were completed.
             •   Evaluation reports were not completed in a timely manner.
             •   Evaluation reports were not readily available to contracting officials.
             •   Evaluation reports were not used in awarding new contracts.

             In addition, the Office of Procurement had not updated its formal policies and
             procedures, nor established clear lines of authority, to guide the contractor
             performance evaluation program.

             To address these problems, the audit report issued four recommendations including
             Recommendation No. 2 as follows.

                                                                                                 1
                      “Assign an Office of Procurement manager clear responsibility and line
                      authority for ensuring that the contractor past performance evaluation
                      process is operating effectively. The assigned manager should ensure that
                      required evaluation reports are completed in a timely manner and that
                      reports are made available to and used by source selection teams.”

             In response to the recommendation, the Office of Procurement assigned its Deputy
             Director for Operations responsibility and authority for ensuring that the contactor
             performance evaluation process was operating effectively. Specifically, the Office
             noted in December 2000 that the Deputy Director “will exercise his line authority
             over the ten branches in the three M/OP (Office of Procurement) operating
             divisions and will coordinate with the Mission contracting activities to promote
             effective, efficient functioning of the reporting requirements and use of the reports
             in source selection actions.”

             In accordance with Office of Management and Budget Circular No. A-50 and
             Office of Inspector General audit policy, we selected Recommendation No. 2 for
             follow-up because it specifically dealt with the effectiveness of the contractor
             performance evaluation program. The purpose of our recommendation follow-up
             was to ensure that continuing management actions have corrected or are correcting
             the deficiencies identified in the December 1999 audit report.


Discussion   USAID has undertaken several management actions that have reduced the problems
             identified in the December 1999 audit report. However, the Office of Procurement
             needs to further address two areas for the contractor performance evaluation
             program to perform as intended.

             Management Actions Have Improved the
             Contractor Performance Evaluation Program

             The USAID Office of Procurement has initiated several efforts to improve the
             contractor performance evaluation program.1 In addition to assigning the Deputy
             Director for Operations clear responsibility and line authority, the Office has
             initiated the following efforts.

             •   In September 1998, USAID subscribed to the National Institute of Health’s
                 (NIH) Contractor Performance System (CPS), which captures contractor
                 evaluation reports for USAID and other federal agencies.

             1
              Given resource limitations, we did not directly test whether the contractor performance
             evaluation system is currently effective, i.e. whether USAID has assurance that superior
             contractors are selected or that poor contractors are avoided. Our limited work identified
             problems already addressed by USAID management and those problems remaining.


                                                                                                          2
•   The number of completed evaluation reports in the contractor performance
    system had increased substantially from 199, as of December 1998, to 5932 as
    of March 2002.
•   The current reporting system (NIH CPS) provides for more routine and
    comprehensive compiling and collecting of evaluation reports and also makes
    these reports more readily available to contracting personnel worldwide.
•   USAID contracting officers responsible for source selections can obtain “real-
    time” access through the Internet to approximately 5,000 contractor
    performance evaluation reports completed by USAID and 16 other federal
    agencies.
•   The Office of Procurement has adopted formal procedures for using the NIH
    CPS during source selections as described by Agency Directives System (ADS)
    Chapter 302.5.
•   The Office of Procurement Evaluation Division examines the use of the NIH
    CPS during their reviews of USAID contracting offices. Although the Office of
    Procurement does not maintain summary statistics to quantify the extent of the
    system’s use, the Chief of the Evaluation Division told us that the NIH CPS is
    used extensively.
•   In May 2002, given the importance of contractor past performance during
    source selection, the Office of Procurement reemphasized to contracting
    officers worldwide the importance of using the NIH CPS to document
    contractor past performance.

In spite of these improvements, two problem areas require further management
attention by the Office of Procurement—(1) the NIH CPS database
accommodating USAID requirements and (2) cognizant technical officers
fulfilling requirements to timely complete contractor performance evaluations.

Contractor Performance Database System Needs to be
Further Refined to Accommodate USAID Requirements

USAID operates in an international environment and has institutional
arrangements that are unique to its mission of providing worldwide development
assistance. The NIH CPS database was adapted to accommodate USAID’s
unique access requirements for contracting staffs overseas as well as in the
United States. Although USAID requirements have been accommodated, we
concur with USAID worldwide system users, the Office of Procurement system
manager, and the NIH system administrator who have identified several
remaining problems, as follows, which require additional system refinements.



2
 According to Office of Procurement officials, in March 2002, there were 593 final USAID
evaluation reports in NIH CPS database. This figure does not include reports entered, but
subsequently deleted, after contract files were retired.


                                                                                            3
•   Users had difficulties accessing the NIH database because of unfamiliarity
    with its access procedures.
•   The system database did not contain summary information by contractor.
    While the system database may contain as much as 50 detailed evaluation
    reports for a specific contractor, summary ratings for contractors were not
    available and could not be used for comparisons.
•   The system database could not be easily queried to determine responsibility
    for delinquent reporting of overdue contractor performance evaluation
    reports. Therefore, management control was lessened because delinquent
    filers could not be easily monitored and reported. In addition, delinquency
    statistics by USAID operating units could not be easily obtained from the
    system.
•   The system database did not identify the extent of its use for specific
    purposes, such as source selections. Therefore, management could not
    determine the extent of the use of the system’s evaluation reports during
    source selections.

To resolve these problems, system changes are requested through interagency
user group meetings, email, and/or telephone correspondence between the
USAID system manager and the NIH system administrator. According to the
Office of Procurement system manager, although it often takes longer than
desirable, this mechanism is working reasonably well.

Contractor Performance Evaluations Need to be
Completed More Timely by Cognizant Technical Officers

The December 1999 audit report stated that contractor performance evaluations
were not completed in a timely manner. For example, it took an average of 245
days to complete reports. The audit report noted that some timeliness issues
were attributable to insufficient guidance to settle disputed contractor
performance evaluations. USAID subsequently revised its ADS guidance in
May 2000. This ADS Chapter 302 now provides clear timeframes and reporting
requirements to settle disputes in a timely manner. Nevertheless, this has not
eliminated the problem of contractor performance evaluations not completed in a
timely manner.

Contractor performance evaluations still need to be prepared more timely. In
March 2002, the Office of Procurement noted that many of the USAID-prepared
evaluations within the NIH contractor performance system are incomplete and
have remained in the same reporting stage for an average of 2923 days. The
Office of Procurement further stated that this situation resulted primarily from
inaction by cognizant technical officers on the evaluations assigned to them by
the contracting officers. According to Office of Procurement statistics as of
3
 We relied on the Office of Procurement’s attestation and did not independently verify these
statistics.

                                                                                               4
             March 2002, 334 contractor performance evaluations were in progress. 200
             evaluation reports (60 percent) in progress were awaiting action by cognizant
             technical officers. In contrast, 101 reports (30 percent) were awaiting action by
             contracting officers and the remaining 33 reports (10 percent) were awaiting
             action by contractors.

             In order to identify mechanisms to improve reporting by cognizant technical
             officers, we corresponded with ten4 contracting officers who were identified by
             the Office of Procurement as having among the best reporting records for
             completing contractor performance evaluations. According to these contracting
             officers, their success in completing contractor performance evaluations was due
             to their persistence in ensuring that cognizant technical officers complete
             contractor performance evaluations in a timely manner. For example, these
             successful contracting officers noted that they employed a variety of personnel
             strategies including setting expectations, coaching, and persistent follow-up.


Conclusion   Based on the follow-up results, we conclude that USAID has initiated several
             efforts to improve the contractor performance evaluation program. For example,
             the integration of USAID’s contractor performance evaluation process into the
             NIH CPS database has improved the availability of contractor performance
             evaluation reports to contracting officers worldwide.

             In spite of these improvements, two problem areas require further management
             attention by the Office of Procurement—(1) the NIH CPS database
             accommodating USAID requirements and (2) cognizant technical officers
             fulfilling requirements to complete contractor performance evaluations in a
             timely manner.

             In regard to the first problem area of accommodating USAID requirements into
             the NIH CPS database, we suggest that the Office of Procurement:

             •   Pursue improvements in the NIH CPS that will make access procedures more
                 user friendly and the information contained in the system more usable to
                 source selection officials. Specifically, the access procedures need to be
                 simplified, and the NIH CPS database needs to provide summary ratings by
                 contractor to facilitate ranking contractors during the source selection
                 process.
             •   Pursue improvements in the NIH CPS to provide more effective monitoring
                 tools for management control purposes. Specifically, the system should
                 provide information that can identify: (1) USAID officials that are not
                 reporting in a timely manner; (2) organizations, such as missions and
                 bureaus, that are experiencing high delinquency rates; and (3) contracting
                 officers that are not using available reports for source selection purposes.
             4
              The contracting officers are located in Africa, Asia, Central America, South America, East
             Europe, and Washington, D.C. Eight out of ten contracting officers responded to the survey.

                                                                                                           5
•   Initiate a reporting process that alerts high-level USAID operating officials to
    the importance of the contractor evaluation process and provides them with
    comparative delinquency reporting statistics to encourage assistance in
    getting reporting problems resolved.

Regarding the second problem area—cognizant technical officers not completing
contractor performance evaluations in a timely manner—we have no suggestions
for the Office of Procurement at this time. However, the Office of Inspector
General is conducting an in-depth audit of cognizant technical officers’ training,
use, and accountability including responsibilities for completing contractor
performance evaluations. This audit may contain recommendations for your
action.

Although we did not request written management comments on this report, we
did discuss its findings and conclusions with the Office of Procurement
management. The Office of Procurement agreed with the report and its
suggestions.




                                                                                  6
